Audit Report




OIG-13-019
Audit of the Exchange Stabilization Fund’s Fiscal Years
2012 and 2011 Financial Statements


December 5, 2012




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF                                 December 5, 2012
INSPECTOR GENERAL




            MEMORANDUM FOR MARK SOBEL
                           DEPUTY ASSISTANT SECRETARY FOR INTERNATIONAL
                           MONETARY AND FINANCIAL POLICY

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audits

            SUBJECT:                 Audit of the Exchange Stabilization Fund’s Fiscal Years 2012
                                     and 2011 Financial Statements


            I am pleased to transmit the attached audited Exchange Stabilization Fund (ESF)
            financial statement for fiscal years 2012 and 2011. Under a contract monitored by
            the Office of Inspector General, KPMG LLP, an independent certified public
            accounting firm, performed an audit of the financial statements of ESF as of
            September 30, 2012 and 2011 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                    •   Independent Auditors’ Report;
                    •   Independent Auditors’ Report on Internal Control Over Financial
                        Reporting; and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                    •   the financial statements were fairly presented, in all material respects, in
                        conformity with U.S. generally accepted accounting principles;
                    •   no deficiencies in internal control over financial reporting that are
                        considered material weaknesses; and
                    •   no instances of reportable noncompliance with laws and regulations
                        tested.
Page 2


In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated December 3, 2012 and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits at
(202) 927-5591.

Attachment
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND

       Financial Report

       Fiscal Year 2012
                          DEPARTMENT OF THE TREASURY
                          EXCHANGE STABILIZATION FUND

                                      Table of Contents




                                                                            Page


Policy and Operations Statements                                              1
Independent Auditors’ Report                                                  3
Independent Auditors’ Report on Internal Control Over Financial Reporting     4
Independent Auditors’ Report on Compliance and Other Matters                  5
Financial Statements:
   Statements of Financial Position                                           6
   Statements of Income and Comprehensive Income and Retained Earnings        7
   Statements of Cash Flows                                                   8
Notes to Financial Statements                                                 9
                         EXCHANGE STABILIZATION FUND
                       POLICY AND OPERATIONS STATEMENTS
                                FISCAL YEAR 2012



The Nature and Function of the Exchange Stabilization Fund

The Gold Reserve Act of 1934 established a fund to be operated by the Secretary of the
Treasury, with the approval of the President. Section 10 of the Act provided that “For the
purpose of stabilizing the exchange value of the dollar, the Secretary of the Treasury, with the
approval of the President, directly or through such agencies as he may designate, is authorized,
for the account of the fund established in this section, to deal in gold and foreign exchange and
such other instruments of credit and securities as he may deem necessary to carry out the purpose
of this section.” To this end, the Congress, in 1934, appropriated to the Exchange Stabilization
Fund (ESF) the sum of $2 billion out of the increment resulting from the reduction in the “weight
of the gold dollar.” Subsequent amendments to the Gold Reserve Act approved the operation of
the ESF through June 30, 1945. Section 7 of the Bretton Woods Agreements Acts, approved
July 31, 1945, continued its operations permanently.

The Bretton Woods Agreements Act also directed the Secretary of the Treasury to pay
$1.8 billion from the ESF to the International Monetary Fund (IMF), for the initial U. S. quota
subscription in the IMF, thereby reducing the ESF’s appropriated capital to $200 million.

Reflecting termination of the fixed exchange rate system, legislation enacted in 1976
(P.L. 94-564, October 19, 1976) amended the language of Section 10 of the Gold Reserve Act to
specify that the ESF is to be utilized as the Secretary “may deem necessary to and consistent
with the United States obligations in the International Monetary Fund.” This amendment
became effective on April 1, 1978, the date of entry into force of the Second Amendment of the
IMF Articles of Agreement. In 1977, P.L. 95-147 further amended Section 10 of the Gold
Reserve Act. Following codification, Section 10 now provides in relevant part:

   Consistent with the obligations of the Government in the International Monetary Fund on
   orderly exchange arrangements and a stable system of exchange rates, the Secretary or an
   agency designated by the Secretary, with the approval of the President, may deal in gold,
   foreign exchange, and other instruments of credit and securities the Secretary considers
   necessary. However, a loan or credit to a foreign entity or government of a foreign country
   may be made for more than 6 months in a 12-month period only if the President gives
   Congress a written statement that unique or emergency circumstances require the loan or
   credit be for more than 6 months (31 U.S.C. 5302 (b)).

Pursuant to the Special Drawing Rights Act of 1968 (P.L. 90-349, amended by P.L. 94-564),
Special Drawing Rights (SDRs) allocated by the IMF to the United States or otherwise acquired
by the United States are resources of the ESF.

Section 286p of Title 22 of the United States Code allows for SDRs to be
monetized/demonetized through the issuance/redemption by the Secretary of the Treasury of
SDR certificates to the Federal Reserve Banks in exchange for dollars. The total amount of SDR



Unaudited – see accompanying auditor’s report                                                       1
                          EXCHANGE STABILIZATION FUND
                        POLICY AND OPERATIONS STATEMENTS
                                 FISCAL YEAR 2012



certificates outstanding cannot exceed the dollar equivalent of ESF (i.e., U. S.) holdings of
SDRs; such certificates are a liability of the ESF.

I.     Foreign Currency Operations

       a. Euros and Japanese Yen

          The ESF had a net valuation loss of $356 million on its holdings of euros and yen. The
          ESF had investment income of $164.4 million equivalent on its euro and yen assets.

       b. Mexico

          In November 2011, the Treasury and Federal Reserve Bank of New York, acting as
          Treasury’s fiscal agent, renewed the Exchange Stabilization Agreement with Mexico
          for another year to December 2012.

II.    SDR Operations

       As of September 30, 2012, U.S. holdings (assets) of SDRs totaled SDR 35.8 billion
       ($55.2 billion equivalent), a net change of 0 SDR during Fiscal Year 2012. However, as
       the SDR appreciated against the dollar in this period, there was a net valuation loss of
       $695.8 million on U.S. holdings of SDRs. The ESF reimbursed the Treasury’s General
       Fund $52.1 million for SDRs received from the IMF as remuneration on the U.S. reserve
       position in the IMF. The ESF earned interest of $79.6 million equivalent on its SDR
       holdings.

       As of September 30, 2012, cumulative allocations to (liabilities of) the United States
       totaled SDR 35.3 billion ($54.5 billion equivalent). These liabilities would come due only
       in the event of liquidation of, or U.S. withdrawal from, the SDR Department of the IMF, or
       cancellation of SDRs.

       There were $5.2 billion of SDR certificates that had been issued to the Federal Reserve
       System prior to fiscal year 2012.

III.   Income and Expense

       Interest revenue totaled $255.2 million, consisting of $11.2 million in interest on dollar
       holdings invested in U.S. Government securities, $79.6 million equivalent in interest on
       SDR holdings, and $164.4 million equivalent in interest on foreign currency investments.

       Interest expense totaled $78.6 million, primarily representing interest charges on SDR
       Allocations.



Unaudited – see accompanying auditor’s report                                                       2
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006


                                         Independent Auditors’ Report

Inspector General
U.S. Department of the Treasury:

We have audited the accompanying statements of financial position of the U.S. Department of the
Treasury’s Exchange Stabilization Fund (“ESF”) as of September 30, 2012 and 2011, and the related
statements of income and comprehensive income and retained earnings, and cash flows, (hereinafter
referred to as “financial statements” or “basic financial statements”) for the years then ended. These
financial statements are the responsibility of the ESF’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (“OMB”) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the ESF’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Exchange Stabilization Fund as of September 30, 2012 and 2011, and the results
of its operations and its cash flows for the years then ended in conformity with U.S. generally accepted
accounting principles.

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Policy and Operations Statements section on pages 1 and 2 is presented for
the purposes of additional analysis and is not a required part of the basic financial statements. Such
information has not been subjected to the auditing procedures applied in the audits of the basic financial
statements, and accordingly, we do not express an opinion or provide any assurance on it.

In accordance with Government Auditing Standards, we have also issued our reports dated December 3,
2012, on our consideration of the ESF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




December 3, 2012

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006


             Independent Auditors’ Report on Internal Control Over Financial Reporting

Inspector General
U.S. Department of the Treasury:

We have audited the statements of financial position of the U.S. Department of the Treasury’s Exchange
Stabilization Fund (“ESF”) as of September 30, 2012 and 2011 and the related statements of income and
comprehensive income and retained earnings, and cash flows (hereinafter referred to as “financial
statements”) for the years then ended, and have issued our report thereon dated December 3, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the ESF is responsible for establishing and maintaining effective internal control over
financial reporting. In planning and performing our fiscal year 2012 audit, we considered the ESF’s
internal control over financial reporting by obtaining an understanding of the design effectiveness of the
ESF’s internal control, determining whether internal controls had been placed in operation, assessing
control risk, and performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the ESF’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of the ESF’s internal control over financial reporting. We did not
test all internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

This report is intended solely for the information and use of the addressee, ESF’s management, OMB, the
U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.




December 3, 2012


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of the Treasury:

We have audited the statements of financial position of the U.S. Department of the Treasury’s Exchange
Stabilization Fund (“ESF”) as of September 30, 2012 and 2011, and the related statements of income and
comprehensive income and retained earnings, and cash flows (hereinafter referred to as “financial
statements”) for the years then ended, and have issued our report thereon dated December 3, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the ESF is responsible for complying with laws, regulations, and contracts applicable
to the ESF. As part of obtaining reasonable assurance about whether the ESF’s financial statements are free
of material misstatement, we performed tests of the ESF’s compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, and
contracts applicable to the ESF. However, providing an opinion on compliance with those provisions was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressee, ESF’s management, OMB, the
U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.




December 3, 2012




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF FINANCIAL POSITION
(In Thousands)

As of September 30                                                                       2012            2011

Assets

Cash and Cash Equivalents (Note 2)                                                  $    32,433,191 $    30,974,114
Securities Purchased Under Agreement to Resell (Note 3)                                     771,360       2,505,269
Investment Securities and Other Foreign Currency Denominated Assets (Note 5)             15,326,015      15,671,256
Special Drawing Right Holdings (Note 4)                                                  55,232,490      55,875,301
Interest Receivable                                                                          89,819         114,112
Interest Receivable on Special Drawing Right Holdings                                         7,123          35,607
Total Assets                                                                        $   103,859,998 $   105,175,659

Liabilities and Equity

Liabilities:
     Special Drawing Rights Certificates Issued to Federal Reserve Banks (Note 7)   $     5,200,000 $     5,200,000
     Special Drawing Right Allocations (Note 4)                                          54,463,490      55,149,673
     Interest Payable on Special Drawing Right Allocations                                    7,024          35,145
     Other                                                                                      266             313
Total Liabilities                                                                        59,670,780      60,385,131

Commitments and Contingencies (Note 9)

Equity:
     Appropriated Capital                                                                   200,000         200,000
     Retained Earnings                                                                   43,634,321      43,823,544
     Accumulated Other Comprehensive Income (Notes 1 and 6)                                 354,897         766,984
Total Equity                                                                             44,189,218      44,790,528

Total Liabilities and Equity                                                        $   103,859,998 $   105,175,659



See accompanying notes to financial statements.




                                                              6
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF INCOME AND COMPREHENSIVE INCOME AND RETAINED EARNINGS
(In Thousands)

For the years-ended September 30                                                            2012           2011

Interest Income
      Interest on Cash and Cash Equivalents                                             $      23,158 $       47,459
      Interest on Securities Purchased Under Agreement to Resell                                4,704         19,175
      Interest on Investment Securities and Other Foreign Currency Denominated Assets         147,702        198,123
      Interest on Special Drawing Right Holdings                                               79,639        250,143
Total Interest Income                                                                         255,203        514,900

Interest Expense
      Interest on Special Drawing Right Allocations                                           (78,565)      (243,958)
      Interest on Special Drawing Right -
         Remuneration due to the U.S. Treasury                                                     (2)            (3)
Total Interest Expense                                                                        (78,567)      (243,961)

Net Interest Income                                                                          176,636         270,939

Net Gains/(Losses)
      Gain/(Loss) on Foreign Currency Valuation of:
        Special Drawing Rights Holdings                                                      (695,209)       230,832
        Special Drawing Rights Allocations                                                    685,644       (193,105)
        Investment Securities and Other Foreign Currency Denominated Assets, net             (178,338)     1,171,738
        Securities Purchased Under Agreement to Resell                                       (177,365)       (27,973)
Total Net Gains/(Losses)                                                                     (365,268)     1,181,492

Other Expenses
    International Monetary Fund Annual Assessment                                                  (591)          (881)

Net Income/(Loss)                                                                            (189,223)      1,451,550

Other Comprehensive Income
    Unrealized Holding Loss (Notes 1 and 6)                                                  (412,087)      (405,609)

Comprehensive Income/(Loss)                                                             $    (601,310) $   1,045,941

Retained Earnings, Beginning of Year                                                    $   43,823,544 $   42,371,994

Net Income/(Loss)                                                                            (189,223)      1,451,550

Retained Earnings, End of Year                                                          $   43,634,321 $   43,823,544



See accompanying notes to financial statements.




                                                                    7
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF CASH FLOWS
(In Thousands)

For the years-ended September 30                                                            2012                  2011

Cash Flows from Operating Activities:
     Interest Received on:
         Cash and Cash Equivalents                                                      $           24,141    $           46,599
         Securities Purchased Under Agreement to Resell                                               4,788               19,124
        Investment Securities and Other Foreign Currency Denominated Assets                        220,076               241,541
      Other                                                                                         (3,650)               (7,759)
Net Cash Provided by Operating Activities                                                          245,355               299,505

Cash Flows from Investing Activities:
     Net Purchases/(Maturities) of Securities Purchased Under Agreement to Resell             1,556,544               (30,099)
     Purchases of Investment Securities and Foreign Currency Denominated Assets              (9,924,743)          (10,155,496)
     Maturities of Investment Securities and Foreign Currency Denominated Assets              9,807,509            10,298,549
     Reimbursement for Remuneration Received                                                    (52,139)              (63,077)
     Purchase of Special Drawing Rights                                                               -              (140,775)
     IMF Quota Increase                                                                               -             1,974,719
     Other                                                                                          638                   751
Net Cash provided by Investing Activities                                                     1,387,809             1,884,572

     Effect of Exchange Rate on Cash                                                           (174,087)             269,041

Net Increase in Cash and Cash Equivalents                                                     1,459,077             2,453,118

Cash and Cash Equivalents,
  Beginning of Year                                                                          30,974,114            28,520,996

Cash and Cash Equivalents,
  End of Year                                                                           $    32,433,191       $    30,974,114

Reconciliation of Net Income/(Loss) to Net Cash Provided by
  Operating Activities
      Net Income/(Loss)                                                                 $      (189,223)      $     1,451,550
      Adjustments to Reconcile Net Income/(Loss) to Net Cash Provided by
        Operating Activities:
            Net Exchange Rate (Gain)/Loss on Repos, FCDAs, and Investment Securities            355,703            (1,143,765)
            Decrease (Increase) in Special Drawing Right Holdings Due to Valuation              695,756              (229,412)
            Net Increase in Special Drawing Rights Holdings                                       (1,444)               (7,033)
            (Increase)/Decrease in Accrued Interest Receivable                                   52,777                 (7,307)
           Amortization of Bond Premium/Discount (net)                                           46,138                36,017
            (Decrease)/Increase in Special Drawing Right Allocations Due to Valuation          (686,184)              191,764
            (Decrease)/Increase in Accrued Interest Payable and Other                           (28,168)                  7,691
Total Adjustments                                                                               434,578            (1,152,045)
Net Cash Provided by Operating Activities                                               $        245,355      $        299,505



See accompanying notes to financial statements.




                                                                       8
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABILIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2012 and 2011



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A.    Entity

The Exchange Stablization Fund (ESF) was originally established pursuant to section 10 of the Gold
Reserve Act of 1934 for the purpose of stabilizing the exchange value of the dollar. Section 10 has been
amended several times since 1934. This section currently authorizes the Secretary, with the approval of the
President, to deal in gold, foreign exchange, and instruments of credit and securities consistent with US
obligations in the International Monetary Fund on orderly exchange arrangements and a stable system of
exchange rates. 31 U.S.C. 5302(b).

The Federal Reserve Bank of New York (FRBNY) acts as the fiscal agent for the ESF, as permitted by the
Federal Reserve Act. As the fiscal agent, the FRBNY plays a significant role in the processing of foreign
currency transactions that the Secretary of the Treasury authorizes. The manager of the ESF foreign
currency portfolio at the FRBNY consults regularly with the Federal Open Market Committee and the U.S.
Department of the Treasury (Treasury) about the disposition of investments and the status of the portfolio.
The level and currency composition of the ESF foreign currency portfolio are the products of Treasury
policy determinations. The ESF management is responsible for the record keeping and investment decisions
for foreign currency transaction activity carried out by the FRBNY.

By law, the ESF is not available to pay administrative expenses. Instead the Treasury’s Office of
International Affairs has responsibility for managing ESF operations, and Treasury’s Deputy Chief
Financial Office provides the recordkeeping and financial reporting services for the ESF. These Treasury
offices bear all administrative expenses of the ESF. Accordingly, there are no administrative expenses
reported in the financial statements.

B.    Basis of Accounting and Presentation

The ESF has historically prepared its financial statements in accordance with generally accepted accounting
principles, based on accounting standards issued by the Financial Accounting Standards Board (FASB), the
private-sector standards-setting body.

C.    Risks and Uncertainties

The ESF faces certain risks and uncertainties as a result of holding foreign currency securities. The price of
ESF’s holdings of such securities may widely fluctuate as result of volatility in foreign currency markets and
changes in real and perceived credit of ESF’s counterparties.

Credit risk related to its holdings, is the potential, no matter how remote, for financial loss from a failure of a
borrower or counterparty to perform in accordance with underlying contractual obligations.

The preparation of financial statements requires management to make estimates and assumptions that affect
the reported amounts of assets, liabilities, and disclosures of contingent assets and liabilities at the date of
the financial statements and the reported amounts of revenues and expenses during the reporting period.
Significant estimates are used in the preparation of amounts related to the valuation of investments and
contingent liabilities. Actual results could differ from those estimates.


                                                        9
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2012 and 2011



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (Continued)

D.    Cash and Cash Equivalents

Cash equivalents are short-term, highly liquid investments that are both readily convertible to known
amounts of cash, and so near their maturity that they present insignificant risk of change in value due to
changes in interest rates. Cash and Cash Equivalents consist of the following:

  •   U.S. Government Securities

  •   Short-term Foreign Currency Denominated Assets (FCDAs) – including deposits and securities
      denominated in both euro and yen

E.    Investments

Held-to-maturity securities are those securities in which the entity has the ability and intent to hold the
security until maturity. Held-to-maturity securities are recorded at amortized cost, adjusted for the
amortization and accretion of premiums or discounts.

Trading securities are bought and held principally for the purpose of selling them in the near term. ESF has
no securities classified as trading.

Available-for-sale securities are those which are neither trading nor held-to-maturity. ESF’s Other FCDAs
and Investment Securities are classified as available-for-sale. Available-for-sale securities are recorded at
fair value. Unrealized holding gains and losses on available-for-sale securities, including gains and losses
related to foreign currency valuation, are excluded from earnings and are reported as a separate component
of accumulated other comprehensive income until realized. Realized gains and losses from the sale of
available-for-sale securities are determined on a specific-identification basis.

Interest on investments, amortization of premiums, and accretion of discounts are reported in Interest
Income and are recognized on an accrual basis. Premiums and discounts are amortized or accreted over the
life of the related investment security as an adjustment to yield using the effective–interest method.

Foreign currency assets (FCA) include interest-bearing foreign deposit accounts and investments in foreign
government securities.

FCAs also include FCDAs reported as Cash and Cash Equivalents, Other FCDAs, and Investment
Securities. These categorizations are based on maturity. FCDAs have terms of 3 months or less. Other
FCDAs have terms of less than or equal to a year but greater than 3 months and Investment Securities have
terms greater than a year.

F. Securities Purchased Under Agreement to Resell

Securities Purchased Under Agreement to Resell, generally have agreement terms that do not exceed 90
days, and these are generally treated as collateralized financial transactions and are carried at amounts at
which the securities were acquired, adjusted for translation gains/losses if such agreements pertained to
FCAs.

                                                     10
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABILIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2012 and 2011



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (Continued)

G.       Foreign Currency Valuations

In accordance with Foreign Currency Matters (FASB ASC 830), FCAs as well as Special Drawing Rights
and related accrued interest receivable or payable, discussed below, are revalued to reflect current exchange
rates in effect as of the reporting date. Such gains or losses, recognized in the period of the fluctuations, are
reported on the Statements of Income and Comprehensive Income and Retained Earnings as Gains (Losses)
on Foreign Currency Valuation. Gains and losses related to foreign currency valuations of Investment
Securities and Other FCDAs are excluded from earnings and are reported as a component of other
comprehensive income until realized.

H.       Other-than-temporary-Impairment

A decline in the market value (either due to credit, price or currency) of any investment below cost that is
deemed to be other-than-temporary is accounted for as an impairment and the carrying value is reduced to
fair value for financial statement reporting purposes. The impairment is charged to earnings and the
charge establishes a new cost basis for the investment. To determine whether impairment is other-than-
temporary, the ESF considers whether it has the ability and intent to hold the investment until a market
price recovery and considers whether evidence indicating the cost of the investment is recoverable
outweighs evidence to the contrary. Evidence considered in this assessment includes the reasons for the
impairment, the severity and duration of the impairment, changes in value subsequent to year-end,
forecasted performance of the investee and the general market condition in the geographic area or
industry the investee operates in. ESF regularly evaluates whether unrealized losses on investment
securities indicate other-than-temporary impairment that would require recognition in the financial
statements.

I.       Fair Values of Financial Instruments

Fair Value Measurements and Disclosures (FASB ASC 820-10) establishes a fair value hierarchy that
prioritizes the inputs to valuation techniques used to measure fair value. The hierarchy gives the highest
priority to unadjusted quoted prices in active markets for identical assets or liabilities (Level 1
measurements) and lowest priority to measurements involving significant unobservable inputs (Level 3
measurements). The three levels of the fair value hierarchy are as follows:

     •    Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or liabilities
          that the ESF has the ability to access at the measurement date.

     •    Level 2 inputs are inputs other than quoted prices included within Level 1 that are observable for
          the asset or liability, either directly or indirectly.

     •    Level 3 inputs are unobservable inputs for the asset or liability.

All of the ESF’s investments, except for the Securities Purchased under Agreement to Resell, are Level 1
measurements since these financial assets are traded in active markets where quotable values are readily
available. Securities Purchased under Agreement to Resell are considered Level 2 as they are not traded
on active exchanges; however, there are similar securities that can be used to estimate fair value.

                                                       11
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2012 and 2011



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (Continued)

J.    Special Drawing Right Certificates Issued to Federal Reserve Banks

Special Drawing Right Certificates issued to Federal Reserve Banks (FRB) are reflected on the
Statements of Financial Position at their face value. Under the terms of the agreement, there is no set
repayment date and no interest accrued while certificates remain outstanding. As a result, the carrying
amount represents the face value.

K.    U.S. Government Securities

The ESF invests dollars in excess of its immediate needs in overnight, nonmarketable U.S. government
securities issued by the Treasury. The interest rate earned on the investments is equal to the overnight
repurchase agreement rate as established by the Treasury’s Bureau of Public Debt.

L.    Other Comprehensive Income

Accumulated Other Comprehensive Income (Loss) is made up only of changes in the fair value of
investments classified as available-for-sale. Unrealized gains and losses, if any, would subsequently be
reclassified into income in the same period the underlying investment is either sold or transferred to the
trading classification.

M.    Tax-Exempt Status

As a component of the Treasury, which is a federal agency, the ESF is not subject to federal, state, or
local income taxes, and accordingly, no provision for income taxes is recorded.

N.    Reclassifications

Certain reclassifications have been made to prior year amounts to conform to the current year presentation.
On the Statement of Cash Flows, in the adjustments to reconcile net income/(loss) to net cash provided by
operating activities, amortization of bond premium/discount (net) has been separately disclosed. Amounts
have been reclassified from net exchange rate gain (loss) on Repos, FCDAs, and Investment Securities to
amortization of bond premium/discount (net).




                                                    12
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2012 and 2011



NOTE 2 – CASH AND CASH EQUIVALENTS

Cash and cash equivalent amounts held as of September 30, 2012 and 2011 are as follows:

 September 30 (In Thousands)                                    2012                        2011

 Cash and cash equivalents:
 U. S. government securities                                  $ 22,680,149                 $ 22,721,204

 Short-term FCDAs:
    European euro                                                   5,809,970                   4,277,368
    Japanese yen                                                    3,943,072                   3,975,542
 Total short-term FCDAs                                             9,753,042                   8,252,910
 Total cash and cash equivalents                               $ 32,433,191                $ 30,974,114

On March 17, 2011 the Treasury Secretary authorized an intervention by the FRBNY in the form of a sale
of $500 million equivalent of Japanese yen, held by the ESF, against U.S. dollars. On March 17, 2011, the
G-7 finance ministers and central bank governors issued a statement that “excess volatility and disorderly
movements in exchange rates” arising from events in Japan had “adverse implications for economic and
financial stability.” On, March 18, 2011, the FRBNY sold the $500 million equivalent of yen. Actual
settlement occurred on, March 23, 2011, and the ESF invested the $500 million proceeds in the special
overnight Treasury securities in which all its U.S. dollars are invested.

NOTE 3 – SECURITIES PURCHASED UNDER AGREEMENT TO RESELL

The FRBNY, on behalf of ESF, enters into transactions to purchase foreign-currency-denominated
government-debt securities under agreements to resell for which the accepted collateral is the debt
instruments, denominated in Euros, and issued or guaranteed in full by European governments. These
agreements are subject to daily margining requirements.

NOTE 4 – SPECIAL DRAWING RIGHTS

The SDR is an international reserve asset created by the International Monetary Fund (IMF) in 1969 to
supplement the existing reserve assets of IMF member countries, including the United States. In addition
to its role as a supplementary reserve asset, the SDR serves as a means of payment within the IMF, as
well as the unit of account for the IMF and several other international organizations. SDRs may be held
only by the official sector – IMF member countries and certain institutions designated by the IMF as
prescribed holders. On several occasions SDRs have been allocated by the IMF to members participating
in the IMF’s SDR Department, including the United States. SDR transactions by the United States require
the explicit authorization of the Secretary of the Treasury.

The SDR’s value is based on a weighted average of a basket of key international reserve currencies issued
by IMF members (or monetary unions that include IMF members) which have been determined by the
IMF to be freely usable currencies. These currencies are the U.S. dollar, the Euro, the Japanese yen, and

                                                   13
                               DEPARTMENT OF THE TREASURY
                               EXCHANGE STABILIZATION FUND
                              NOTES TO FINANCIAL STATEMENTS
                                  September 30, 2012 and 2011



NOTE 4 – SPECIAL DRAWING RIGHTS (Continued)

the pound sterling. The SDR carries a variable interest rate, calculated weekly as a weighted average of
short-term interest rates of the SDR basket of currencies. The ESF’s SDR Allocations and Holdings (see
below) are revalued monthly, based on the SDR valuation rate calculated by the IMF, and unrealized
gains or losses on revaluation are recognized. SDR Holdings and SDR Allocations are reported as an
asset and liability respectively in the financial statements of the ESF.

SDR Allocations

SDRs, once allocated to the United States, are permanent resources unless:

    a. They are canceled by an 85 percent majority decision of the total voting power of the Board of
       Governors of the IMF;

    b. The SDR Department of the IMF is liquidated;

    c. The IMF is liquidated; or

    d. The United States chooses to withdraw from the IMF or terminate its participation in the SDR
       Department.

Due to the fact that the SDRs are able to be withdrawn, the ESF carries a liability related to such
allocations.

Except for the payment of interest and charges on SDR allocations to the United States, the payment of
the ESF’s liability related to the SDR allocations is conditional on events listed above, in which the
United States has a controlling voice. Allocations of SDRs were made during 1970, 1971, 1972, 1979,
1980, 1981, and 2009.

As of September 30, 2012 and 2011, the value of SDR allocations to the United States was the equivalent
of $54.5 billion and $55.1 billion, respectively.

SDR Holdings

Pursuant to the Special Drawing Rights Act of 1968, as amended, SDRs allocated by the IMF to, or
otherwise acquired by the United States are also resources (holdings) of the ESF. SDR Holdings represent
transactions resulting from these SDR activities, primarily the result of IMF allocations. Other
transactions reported in this account are recorded as they are incurred and include any SDR acquisitions
and sales, interest received on SDR Holdings, interest charges on SDR Allocations, and other SDR
related activities, as well as valuation adjustments.

On May 11, 2011, 25 million SDRs were purchased from the Bank of International Settlements. On
June 29, 2011 two separate transactions with the Bank of International Settlements took place; 35 million
and 28.435 million SDRs were purchased respectively.




                                                   14
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2012 and 2011



NOTE 4 – SPECIAL DRAWING RIGHTS (Continued)
Pursuant to the Supplemental Appropriations Act, 2009 (P.L. 111-32), the United States consented to an
increase in its quota in the International Monetary Fund. Twenty-five percent of the quota was paid by the
United States using SDRs (equivalent to SDR 1,243.275 million).

Other SDR Activities
The U.S. Government receives remuneration in SDRs from the IMF on the U.S. claim on the IMF,
represented by the U.S. Reserve Position. ESF is the only agency within Treasury permitted to transact in
SDRs. SDRs received become the resources of ESF, as required by law, and ESF pays the dollar
equivalent to the U. S. Government’s Treasury General Account (TGA). The ESF's receipt of the SDRs
and payment of the dollar equivalent to the TGA are not simultaneous. Typically, the payment is several
weeks after the receipt of SDRs from the IMF. Therefore, the ESF must reimburse the TGA the interest it
earned on the dollar equivalent of the SDRs held on behalf of the TGA during the period which elapsed
between the receipt of the SDRs and the dollar payment to the TGA.
ESF paid to the TGA $1,450 and $2,700 in fiscal years 2012 and 2011, respectively, in interest due on the
transferred dollars. The ESF did not sell SDRs to any participating members during fiscal year 2012 or
2011.
The following schedule reflects the activity related to SDR Holdings during fiscal years 2012 and 2011 in
SDR and dollar equivalent.

 September 30 (SDR In Thousands)                               2012                        2011

 Beginning balance                                              35,780,344                   36,891,687
 Interest credits on holdings                                        69,637                     153,817
 Interest charges on allocations                                   (68,711)                   (149,380)
 Remuneration                                                        33,464                      39,533
 IMF annual assessment                                                (412)                        (473)
 IMF Quota Increase                                                       -                 (1,243,275)
 Purchases                                                                -                      88,435
 Total SDR - Holdings                                           35,814,322                  35,780,344

 September 30 (Dollar Equivalent In
 Thousands)                                                    2012                         2011

 Beginning balance                                      $      55,875,301           $       57,410,474
 Interest credits on holdings                                     108,670                     244,771
 Interest charges on allocations                                (107,226)                     (237,739)
 Remuneration                                                      52,139                        63,077
 IMF annual assessment                                              (638)                          (750)
 IMF Quota Increase                                                     -                   (1,974,719)
 Purchases                                                              -                      140,775
 Net gain/(loss) on valuation of holdings                       (695,756)                       229,412
 Total Dollar Equivalent – Holdings                     $      55,232,490          $         55,875,301


                                                   15
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2012 and 2011



NOTE 4 – SPECIAL DRAWING RIGHTS (Continued)

The table above reflects the actual dollar equivalent amount of SDRs received or transferred by ESF.
Amounts within the financial statements computed on accrual basis will thus differ since actual SDR
movements occur shortly after the balance sheet date.

NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED ASSETS

The amortized cost, gross unrealized holding gains and losses, and fair value of available-for-sale and
held-to-maturity debt securities by major security type and class of security at September 30, 2012 and 2011
were as follows:

                                                       Gross                    Gross
                                                     Unrealized               Unrealized
September 30, 2012            Amortized               Holdings                 Holding
(In Thousands)                 Cost                    Gains                   (Losses)            Fair Value


 Available for sale:
   Other FCDAs            $  2,698,677           $              61,002   $       (20,427)      $  2,739,252
   German Bonds              1,984,889                          15,999           (65,565)         1,935,323
   French Bonds              1,360,852                         26,318            (48,359)         1,338,811
   French Notes              1,311,809                         30,452            (34,658)         1,307,603
   Japanese Bonds            7,614,891                        409,959            (19,824)         8,005,026
 Total                    $ 14,971,118           $            543,730    $      (188,833)      $ 15,326,015



                                                           Gross                 Gross
                                                         Unrealized            Unrealized
 September 30, 2011             Amortized                 Holdings              Holding
 (In Thousands)                   Cost                     Gains                (Losses)               Fair Value

 Available for sale:
   Other FCDAs                $ 3,028,305            $         −             $ (173,342)           $  2,854,963
   German Bonds                  2,010,188                37,692                (29,249)              2,018,631
   French Bonds                  1,310,036                30,006                (17,459)              1,322,583
   French Notes                  1,372,644                36,998                (18,604)              1,391,038
   Japanese Bonds                7,183,099               905,856                 (4,914)              8,084,041
 Total                        $ 14,904,272           $ 1,010,552             $ (243,568)           $ 15,671,256


Other FCDAs represent Euro denominated instruments issued by the Bank of International Settlements,
and typically mature within one year.



                                                         16
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABILIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2012 and 2011



NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED ASSETS
(Continued)

Debt securities held as unrealized losses were as follows September 30, 2012:

 September 30, 2012                         Unrealized Losses
                                                                                       Fair Value
 (In Thousands)                            Greater Than 1 Year
 Available-for-sale
  Other FCDAs                                   $                  -               $                -
  German Bonds                                                 48,990                             730,038
  French Bonds                                                 34,046                             427,215
  French Notes                                                 27,534                             385,672
  Japan Bonds                                                 11,424                             766,096
 Total                                              $         121,994               $           2,309,021



 September 30, 2012                          Unrealized Losses
                                                                                       Fair Value
 (In Thousands)                              Less Than 1 Year
 Available-for-sale
   Other FCDAs                                  $              20,427                  $         847,236
   German Bonds                                                16,575                              430,421
   French Bonds                                                14,313                              270,292
   French Notes                                                  7,124                             217,721
   Japan Bonds                                                   8,400                             629,100
 Total                                           $            66,839                $          2,394,770


Maturities of debt securities classified as available for sale were as follows at September 30, 2012:

 September 30, 2012
 (In Thousands)                               Amortized Cost                           Fair Value

 Available-for-sale:
   Due within one year                               $    6,971,311                        $    7,146,851
   Due after one year but                                 7,999,807                             8,179,164
 before five years
 Total                                               $   14,971,118                        $   15,326,015




                                                         17
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABILIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2012 and 2011



NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED ASSETS
(Continued)

Impairment Assessment

The ESF evaluates whether unrealized losses on investment securities indicate other-than-temporary
impairment. Based on this evaluation, ESF recognized no other-than-temporary impairment losses on any
securities in fiscal years 2012 and 2011.

Fair Value

The fair value of securities available for sale are measured using the hierarchy or lowest level input that is
significant to the fair value measurement of the investment in its entirety. The following table presents assets
that are measured at fair value on a recurring basis at September 30, 2012 and 2011.


                                                        Fair Value Measurements at Reporting Date Using
                                                    Quoted Prices
                                                     In Active                 Significant
                                                      Markets                    Other             Significant
                                                    For Identical              Observable         Unobservable
 September 30, 2012            Fair Value              Assets                    Inputs              Inputs
 (In Thousands)               At 9/30/2012            (Level 1)                 (Level 2)           (Level 3)


 Available for sale:
   Other FCDAs               $    2,739,252         $        2,739,252     $         -            $         -
   German Bonds                   1,935,323            1,935,323                     -                      -
   French Bonds                   1,338,811            1,338,811                     -                      -
   French Notes                   1,307,603            1,307,603                     -                      -
   Japanese Bonds                 8,005,026            8,005,026                     -                      -
 Total                       $   15,326,015         $ 15,326,015           $         -            $         -




                                                        18
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABILIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2012 and 2011



NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED
ASSETS (Continued)

                                                  Fair Value Measurements at Reporting Date Using
                                                 Quoted Prices
                                                  In Active                   Significant
                                                   Markets                      Other             Significant
                                                 For Identical                Observable         Unobservable
 September 30, 2011            Fair Value           Assets                      Inputs              Inputs
 (In Thousands)               At 9/30/2011         (Level 1)                   (Level 2)           (Level 3)


 Available for sale:
   Other FCDAs               $    2,854,963      $        2,854,963       $          -           $        -
   German Bonds                 2,018,631           2,018,631                        -                    -
   French Bonds                 1,322,583           1,322,583                        -                    -
   French Notes                 1,391,038           1,391,038                        -                    -
   Japanese Bonds               8,084,041           8,084,041                        -                    -
 Total                       $ 15,671,256        $ 15,671,256             $          -           $        -


NOTE 6 – ACCUMULATED OTHER COMPREHENSIVE INCOME

The accumulated balances for other comprehensive income are as follows:

                                                              Accumulated Other
 September 30, 2012 (In Thousands)                           Comprehensive Income


 Balance at September 30, 2011                                                $      766,984
 Unrealized holding gains/(losses)
       arising during the period                      $        (99,727)
 Less: reclassification of gains recognized
       in net income                                          (312,360)
      Other comprehensive loss                                                       (412,087)
 Balance at September 30, 2012                                                $       354,897




                                                     19
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2012 and 2011



NOTE 6 – ACCUMULATED OTHER COMPREHENSIVE INCOME (Continued)

                                                               Accumulated Other
 September 30, 2011 (In Thousands)                            Comprehensive Income


 Balance at September 30, 2010                                              $    1,172,593
 Unrealized holding gains/(losses)
       arising during the period                        $    239,221
 Less: reclassification of gains recognized
      in net income                                         (644,830)
      Other comprehensive loss                                                      (405,609)
 Balance at September 30, 2011                                              $        766,984


NOTE 7 – SDR CERTIFICATES ISSUED TO FEDERAL RESERVE BANKS

The Special Drawing Right Act of 1968 authorized the Secretary of the Treasury to issue Special Drawing
Right certificates (SDRCs), not to exceed the value of SDR holdings, to the Federal Reserve System in return
for interest-free dollar amounts equal to the face value of certificates issued (SDR monetization). The
certificates may be issued for the purpose of financing the acquisition of SDRs from other countries or to
provide resources for financing other operations of the ESF. Certificates issued have no set maturity and are to
be redeemed by the ESF at such times and in such amounts as the Secretary of the Treasury may determine
(SDR demonetization). As of September 30, 2012 and 2011, the amount of certificates issued to Federal
Reserve Banks was $5.2 billion.

NOTE 8 - FAIR VALUES OF FINANCIAL INSTRUMENTS

Financial Instruments (FASB ASC 825-10) requires all entities to disclose the fair value of financial
instruments, where feasible, in an effort to provide financial statement users with information in making
rational investment and credit decisions.

To estimate the fair value of each class of financial instrument, the ESF applied the following methods
using the indicated assumptions:

Cash and Cash Equivalents

Cash and Cash Equivalents consist of U.S. government securities and FCDAs, and are reported in the
Statements of Financial Position at amounts that approximate their fair values.

Securities Purchased Under Agreement to Resell

The fair value is based upon quoted market interest rates for similar securities.




                                                      20
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2012 and 2011



NOTE 8 - FAIR VALUES OF FINANCIAL INSTRUMENTS (Continued)

SDR Certificates Issued to Federal Reserve Banks

The fair value of these certificates is based on the face value of the certificate as they are not subject to
market or interest rate risk nor are they subject to fluctuations in exchange rates.

Special Drawing Right (SDR) Holdings and SDR Allocations

The fair values are based on quoted prices published weekly by the IMF.

Investment Securities and Other FCDAs

The fair value of Investment Securities and Other FCDAs are based upon quoted market and current
exchange rates.

The estimated fair values of the ESF’s financial instruments at September 30 are as follows:

                                                    2012                                   2011
September 30
                                      Carrying                                Carrying
(In Thousands)
                                      Amount                Fair Value        Amount              Fair Value

Assets:
 Cash and Cash Equivalents          $ 32,433,191           $ 32,433,191     $ 30,974,114          $ 30,974,114
 Securities Purchased-
  Under Agreement to
   Resell                                 771,360              771,360         2,505,269            2,505,269
 Investment Securities and
  Other Foreign Currency
   Denominated Assets                 15,326,015            15,326,015        15,671,256           15,671,256
 SDR Holdings                         55,232,490            55,232,490        55,875,301           55,875,301

Liabilities:
 Certificates Issued to
  Federal Reserve Banks                5,200,000             5,200,000         5,200,000            5,200,000
 SDR Allocations                      54,463,490            54,463,490        55,149,673           55,149,673




                                                     21
                               DEPARTMENT OF THE TREASURY
                               EXCHANGE STABILIZATION FUND
                              NOTES TO FINANCIAL STATEMENTS
                                  September 30, 2012 and 2011



NOTE 9 – COMMITMENTS AND CONTINGENCIES

Foreign Currency Denominated Agreements

Foreign currency denominated agreements that exist between the Treasury and foreign entities or
governments provide for drawings of dollars by those entities or governments and drawings of foreign
currencies by the Treasury. The Treasury enters into these agreements through the ESF. Under these
agreements, the ESF receives repayment of an agreed-upon amount in dollars regardless of currency
fluctuations. With the exception of the Mexico agreement noted below, there were no foreign currency
denominated agreements as of September 30, 2012 and 2011.

Exchange Stabilization Agreements

The ESF has an Exchange Stabilization Agreement (ESA) with Mexico. In April 1994, the Treasury
signed the North American Framework Agreement, which includes the ESA with Mexico. The ESA
provides for a $3 billion standing swap line between the Bank of Mexico and the ESF.

The amounts and terms (including the assured source of repayment) of any new borrowings under the
North American Framework Agreement are subject to certain requirements of the agreement that specify
the transactions are exchange rate neutral for the ESF and would bear interest referenced to U.S. Treasury
bills. Drawings are contingent on certain other conditions being met.

There were no drawings outstanding on the ESF swap line as of September 30, 2012 and 2011. On
November 29, 2011, the Treasury renewed its participation in the agreement until December 14, 2012.


NOTE 10 – SUBSEQUENT EVENTS

We evaluated and have had no subsequent events through December 3, 2012, the date that these financial
statements were available to be issued.




                                                   22
